            AUDIT OF THE
    OFFICE OF JUSTICE PROGRAMS
     EDWARD BYRNE MEMORIAL
JUSTICE ASSISTANCE GRANT PROGRAM
      GRANTS AWARDED TO THE
  CITY OF SUISUN CITY, CALIFORNIA


     U.S. Department of Justice
   Office of the Inspector General
            Audit Division


    Audit Report GR-90-11-005
           August 2011
                            AUDIT OF THE
                    OFFICE OF JUSTICE PROGRAMS
                     EDWARD BYRNE MEMORIAL
                JUSTICE ASSISTANCE GRANT PROGRAM
                      GRANTS AWARDED TO THE
                  CITY OF SUISUN CITY, CALIFORNIA

                              EXECUTIVE SUMMARY

       The U.S. Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of a Recovery Act Edward Byrne Memorial
Justice Assistance Grant Program (JAG) grant (2009-SB-B9-0537) and a
non-Recovery Act JAG grant (2009-DJ-BX-0455) awarded by the Office of
Justice Programs (OJP), Bureau of Justice Assistance to the City of Suisun
City, California (Suisun City). The purpose of the two grants was to fund
criminal justice operations in Solano County, California at both the county
level and in the cities of Benicia, Dixon, Fairfield, Suisun City, Vacaville, and
Vallejo. Suisun City served as the fiscal agent for both of these disparate
jurisdictions awards. 1 OJP had awarded Suisun City a total of $1,246,494
for both grants. As of December 31, 2010, Suisun City along with the other
disparate jurisdictions had expended a total of $839,023 (67 percent) of the
grant awards.

                                 EXHIBIT 1
                         JAG GRANTS AWARDED TO
                 SUISUN CITY AND DISPARATE JURISDICTIONS
                              AWARD        AWARD
           GRANT AWARDS     START DATE   END DATE 2 AWARD AMOUNT
       2009-DJ-BX-0455              10/01/08           09/30/12             $    231,564

       2009-SB-B9-0537              03/01/09           02/28/13                 1,014,930

                                                              Total         $1,246,494
   Source: OJP




       1
          According to OJP, in a “disparate jurisdictions” situation, multiple units of local
government apply for an award with a single joint application. The recipient serving as fiscal
agent submits the application on behalf of its fellow sub-recipients. The responsibilities of the
fiscal agent and sub-recipients are established in a Memorandum of Understanding between
the entities. Suisun City fulfilled the role of fiscal agent for both the Recovery Act JAG grant
and the non-Recovery Act JAG grant.
       2
           The Award End Date includes all time extensions approved by OJP.
       The purpose of the Bureau of Justice Assistance’s JAG Program is to
enable states, tribes, and local governments to support a broad range of
activities to prevent and control crime based on their own local needs and
conditions. JAG funds can be used for state and local initiatives, technical
assistance, training, personnel, equipment, supplies, contractual support,
and information systems for criminal justice for any one or more of the
following purpose areas:

      • Law enforcement programs

      • Prosecution and court programs

      • Prevention and education programs

      • Corrections and community corrections programs

      • Drug treatment programs

      • Planning, evaluation, and technology improvement programs

      • Crime victim and witness programs (other than compensation)

Recovery Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act are to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide long
term economic benefits; and (5) stabilize state and local government
budgets, in order to minimize and avoid reductions in essential services and
counterproductive state and local tax increases.

       Through Recovery Act JAG funding, the Department of Justice focused
support on all components of the criminal justice system, including multi-
jurisdictional drug and gang task forces; crime prevention and domestic
violence programs; and courts, corrections, treatment, and justice
information sharing initiatives. Recovery Act JAG funded projects could
address crime by providing services directly to individuals and communities
and by improving the effectiveness and efficiency of criminal justice
systems, processes, and procedures.

                                     - ii -
Audit Results

      The purpose of our audit was to determine whether costs claimed
under the Grants 2009-SB-B9-0537 and 2009-DJ-BX-0455 were allowable,
reasonable, and in accordance with applicable laws, regulations, guidelines,
terms and conditions of the grants. The objective of our audit was to review
performance in the following areas: (1) internal control environment;
(2) drawdowns; (3) program income; (4) expenditures including payroll,
fringe benefits, indirect costs, and accountable property; (5) matching;
(6) budget management; (7) monitoring of sub-recipients and contractors;
(8) reporting; (9) award requirements; (10) program performance and
accomplishments; and (11) post end date activity. We determined that
indirect costs, matching, budget management, and post end date activity
were not applicable to these grants.

      As a result of our audit, we found that Suisun City generally complied
with essential grant requirements and grant expenditures were properly
authorized, classified, and supported. We also physically verified a sample
of property items that were purchased with grant funds and found the items
were being utilized for grant-related purposes. Additionally, as the fiscal
agent for both JAG grants, Suisun City complied with grant requirements
and it monitored its sub-recipients to ensure that the sub-recipients likewise
adhered to grant requirements. Finally, Suisun City submitted the required
financial, programmatic, and Recovery Act reports in a timely manner and
the information in the Progress Reports was accurate.

       However, we found that the expenditure information recorded on
Suisun City’s Financial Status Reports and Recovery Act reports did not
match the expenditure information in the official accounting records.
Further, we found that Suisun City and all of its sub-recipients, except the
City of Fairfield, California (Fairfield), either completed their objectives as
described in the grant applications or were in the process of fulfilling their
objectives. Fairfield’s objectives for both grants included the purchase and
installation of camera equipment. At the time of our review, we noted that
Fairfield had yet to purchase and install the camera equipment.

       The results of our audit are discussed in detail in the Findings and
Recommendations section of this report. We discussed the results of our
audit with Suisun City officials and have included their comments in the
report, as applicable. Our report contains two recommendations to OJP.
Further, we requested from Suisuin City and OJP written responses to our
draft report, which we received and are included in Appendices II and III
respectively. Our audit objective, scope, and methodology are discussed in
Appendix I.
                                       - iii -
                               TABLE OF CONTENTS

INTRODUCTION ....................................................................... 1
       Recovery Act ...................................................................... 2
       Background........................................................................ 2
       OIG Audit Approach ............................................................ 5
FINDINGS AND RECOMMENDATIONS........................................ 7
       Internal Control Environment................................................ 7
       Drawdowns ........................................................................ 8
       Program Income ................................................................. 9
       Expenditures ...................................................................... 9
       Monitoring of Sub-recipients and Contractors ........................ 12
       Reporting......................................................................... 13
       Award Requirements ......................................................... 18
       Program Performance and Accomplishments ......................... 18
       Conclusion ....................................................................... 21
       Recommendations............................................................. 21

APPENDICES:

I.     OBJECTIVE, SCOPE, AND METHODOLOGY............................. 22
II.    GRANTEE RESPONSE ......................................................... 24
III.   DEPARTMENT OF JUSTICE RESPONSE .................................. 27
IV.    OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
        SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT. 29
                                   INTRODUCTION

      The U.S. Department of Justice Office of the Inspector General (OIG),
Audit Division, has completed an audit of a Recovery Act Edward Byrne
Memorial Justice Assistance Grant Program (JAG) grant (2009-SB-B9-0537)
and a non-Recovery Act JAG grant (2009-DJ-BX-0455) awarded by the
Office of Justice Programs (OJP), Bureau of Justice Assistance to the City of
Suisun City, California (Suisun City). The purpose of the two grants was to
fund criminal justice operations in Solano County, California, at both the
county level and in the cities of Benicia, Dixon, Fairfield, Suisun City,
Vacaville, and Vallejo. Suisun City served as the fiscal agent for both of
these disparate jurisdictions awards. 1 OJP had awarded Suisun City a total
of $1,246,494 for both grants. As of December 31, 2010, Suisun City along
with the other disparate jurisdictions had expended a total of $839,023
(67 percent) of the grant awards.

                                 EXHIBIT 1
                         JAG GRANTS AWARDED TO
                 SUISUN CITY AND DISPARATE JURISDICTIONS
                              AWARD        AWARD
           GRANT AWARDS     START DATE   END DATE 2 AWARD AMOUNT
       2009-DJ-BX-0455              10/01/08           09/30/12             $    231,564

       2009-SB-B9-0537              03/01/09           02/28/13                 1,014,930

                                                              Total         $1,246,494
   Source: OJP

      The purpose of our audit was to determine whether costs claimed
under Grants 2009-DJ-BX-0455 and 2009-SB-B9-0537 were allowable,
reasonable, and in accordance with applicable laws, regulations, guidelines,
and terms and conditions of the grants. The objective of our audit was to
review performance in the following areas: (1) internal control
environment; (2) drawdowns; (3) program income; (4) expenditures
including payroll, fringe benefits, indirect costs, and accountable property;
(5) matching; (6) budget management; (7) monitoring of sub-recipients and
contractors; (8) reporting; (9) award requirements; (10) program

       1
          According to OJP, in a “disparate jurisdictions” situation, multiple units of local
government apply for an award with a single joint application. The recipient serving as fiscal
agent submits the application on behalf of its fellow sub-recipients. The responsibilities of the
fiscal agent and sub-recipients are established in a Memorandum of Understanding (MOU)
between the entities. Suisun City fulfilled the role of fiscal agent for both the Recovery Act
JAG grant and the non-Recovery Act JAG grant.
       2
           The Award End Date includes all time extensions approved by OJP.

                                              -1-
performance and accomplishments; and (11) post end date activity. We
determined that indirect costs, matching, budget management, and post end
date activity were not applicable to these grants.

Recovery Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act), which provided
$787 billion for tax cuts, education, health care, entitlement programs,
contracts, grants, and loans. The purposes of the Recovery Act were to:
(1) preserve and create jobs and promote economic recovery; (2) assist
those most impacted by the recession; (3) provide investments needed to
increase economic efficiency by spurring technological advances in science
and health; (4) invest in transportation, environmental protection, and other
infrastructure that will provide long term economic benefits; and (5) stabilize
state and local government budgets, in order to minimize and avoid
reductions in essential services and counterproductive state and local tax
increases.

       The Department of Justice received $4 billion in Recovery Act funds
and made almost $2 billion of that funding available through the Bureau of
Justice Assistance’s JAG program. Through Recovery Act JAG funding, the
Department of Justice focused support on all components of the criminal
justice system, including multi-jurisdictional drug and gang task forces;
crime prevention and domestic violence programs; and courts, corrections,
treatment, and justice information sharing initiatives. Recovery Act JAG
funded projects have assisted grantees in addressing crime by providing
services directly to communities and by improving the effectiveness and
efficiency of criminal justice systems, processes, and procedures.

Background

      The city of Suisun City is located in the county of Solano, California,
about 45 miles Northeast of San Francisco. In addition to Suisun City, the
county is home to the cities of Benicia, Dixon, Fairfield, Vacaville, and
Vallejo. According to the California Department of Justice, Solano County
ranked 15th among the state’s 58 counties in the number of incidents of
violent crime. 3 Solano County ranked 10th in the state in its overall crime
rate, defined as incidents per 100,000 population. Solano County’s
unemployment rate reached 13 percent in March 2010, nearly double the
pre-recession unemployment rate recorded in September 2008.

       3
           According to California Department of Justice, violent crime includes homicide,
forcible rape, robbery, and aggravated assault.

                                            -2-
       The purpose of the Bureau of Justice Assistance’s JAG Program is to
enable states, tribes, and local governments to support a broad range of
activities to prevent and control crime based on their own local needs and
conditions. JAG funds can be used for state and local initiatives, technical
assistance, training, personnel, equipment, supplies, contractual support,
and criminal justice information systems in any one or more of the following
purpose areas:

       • Law enforcement programs

       • Prosecution and court programs

       • Prevention and education programs

       • Corrections and community corrections programs

       • Drug treatment programs

       • Planning, evaluation, and technology improvement programs

       • Crime victim and witness programs (other than compensation)

      In fiscal year (FY) 2009, Suisun City applied for and received Recovery
Act JAG funding as well as non-Recovery Act JAG funding for itself as well as
on behalf of the Solano County and the cities of Benicia, Dixon, Fairfield,
Vacaville, and Vallejo. 4 As shown in Exhibits 2 and 3, the largest share of
both grants was allocated to the City of Vallejo, California (Vallejo).




       4
        As reflected in Exhibits 2 and 3, the cities of Benicia and Dixon only received
Recovery Act JAG funding.

                                             -3-
                              EXHIBIT 2
                ALLOCATION OF RECOVERY ACT JAG GRANT
                          2009-SB-B9-0537

           $350,000
           $300,000
           $250,000
           $200,000
           $150,000
           $100,000
            $50,000
                $0




        Source: OJP

                             EXHIBIT 3
             ALLOCATION OF NON-RECOVERY ACT JAG GRANT
                          2009-DJ-BX-0455

                  $90,000
                  $80,000
                  $70,000
                  $60,000
                  $50,000
                  $40,000
                  $30,000
                  $20,000
                  $10,000
                       $0




               Source: OJP

      The majority of the funds from both grants was allocated for personnel
costs to Solano County and the cities of Dixon, Fairfield, Vacaville, and
Vallejo. The remainder of the grant funding was allocated for equipment
purchases, such as laptop computers, cameras, mobile radios, and handheld

                                   -4-
radar units for Solano County and the cities of Benicia, Fairfield, and
Suisun City.

      In May 2008, Vallejo declared bankruptcy under Chapter 9 of the
United States Bankruptcy Code. 5 In December 2009, the Vallejo City
Council approved the elimination of 6 sworn police officers from the
previously reduced ranks of the Vallejo Police Department, leaving the
department with 104 sworn police officers, down 42 from the 146 employed
in December 2007. Both grants provided funding for a portion of Vallejo’s
personnel costs, thereby offsetting by one full time equivalent Vallejo’s
planned reduction of sworn police officers.

OIG Audit Approach

      We tested Suisun City’s compliance with what we consider to be the
most important conditions of the grant awards. Unless otherwise stated in
our report, the criteria we audited against are contained in the OJP Financial
Guide, award documents, Code of Federal Regulations, Office of
Management and Budget (OMB) Circulars, and the Recovery Act.
Specifically, we tested:

       •   Internal Control Environment – to determine whether the
           internal controls in place for the processing and payment of funds
           were adequate to safeguard the funds awarded to Suisun City and
           ensure compliance with the terms and conditions of the grants.

       •   Drawdowns – to determine whether drawdowns were adequately
           supported and if Suisun City was managing receipts in accordance
           with federal requirements.

       •   Program Income – to determine how Suisun City accounted for
           program income in its financial management system and whether it
           used the program income in accordance with established criteria.

       •   Expenditures – to determine whether costs charged to the grant,
           including payroll, fringe benefits, and indirect costs (if applicable),
           were accurate, adequately supported, and allowable, reasonable,
           and allocable. In addition, we tested expenditures related to the
           purchase of accountable property and equipment to determine
           whether Suisun City recorded accountable property and equipment


       5
            Chapter 9 of the United States Bankruptcy Code provides for the reorganization of
municipalities, which includes cities and towns, as well as counties, taxing districts, municipal
utilities, and school districts.

                                              -5-
         in its inventory records, indentified it as federally funded, and
         utilized the accountable property and equipment consistent with the
         grants.

     •   Monitoring of Sub-recipients and Contractors – to determine if
         Suisun City provided adequate oversight and monitoring of its sub-
         recipients and contractors.

     •   Reporting – to determine if the required financial, programmatic,
         and Recovery Act reports were submitted on time and accurately
         reflect grant activity.

     •   Award Requirements – to determine whether Suisun City
         complied with award guidelines, special conditions, and solicitation
         criteria.

     •   Program Performance and Accomplishments – to determine
         whether Suisun City made a reasonable effort to accomplish stated
         objectives.

       The results of our audit are discussed in detail in the Findings and
Recommendations section of this report. We discussed the results of our
audit with Suisun City officials and have included their comments in the
report, as applicable. Our report contains two recommendations to OJP.
Further, we requested from Suisuin City and OJP written responses to our
draft report, which we received and are included in Appendices II and III
respectively. The audit objective, scope, and methodology are discussed in
Appendix I.




                                     -6-
              FINDINGS AND RECOMMENDATIONS


           We found that Suisun City generally complied with
           essential grant requirements. Grant expenditures
           were generally properly authorized, classified, and
           supported and we physically verified a sample of
           property items that were purchased with grant funds
           and we found the items were being utilized for grant-
           related purposes. As the fiscal agent for both JAG
           grants, Suisun City generally complied with grant
           requirements and it monitored its sub-recipients to
           ensure that its sub-recipients likewise adhered to
           grant requirements. Also, Suisun City submitted the
           required Financial Status Reports (FSR), Progress
           Reports, and Recovery Act reports in a timely
           manner. The information in the Progress Reports for
           the two grants was accurate. However, we found
           that the expenditure information recorded on Suisun
           City’s FSRs and Recovery Act reports did not match
           the expenditure information in the official accounting
           records. Further, we found that Suisun City and all
           of its sub-recipients, except the City of Fairfield,
           California (Fairfield), either completed their
           objectives as described in the grant applications or
           were in the process of fulfilling their objectives.
           Fairfield’s objectives for both grants included the
           purchase and installation of camera equipment. At
           the time of our review, we noted that Fairfield had
           yet to purchase and install the camera equipment.
           As a result of our findings, we made two
           recommendations.

Internal Control Environment

      We reviewed Suisun City’s policies and procedures, Single Audit
Report, and financial management system to assess the city’s risk of
noncompliance with laws, regulations, guidelines, and terms and conditions
of the grant. We also interviewed Suisun City officials regarding internal
controls over purchasing, payroll, and accounts payable and we reviewed the
documents and processes in place to ensure the accuracy of data entered
into Suisun City’s financial management system.



                                   -7-
Single Audit

      According to OMB Circular A-133, non-federal entities that expend
$500,000 or more in federal awards in a year shall have a Single Audit
conducted. The most recent Single Audit available for Suisun City was for
FY 2010. 6 We reviewed Suisun City’s FY 2010 Single Audit Report and found
that the independent auditors issued an unqualified opinion and had no
findings.

Financial Management System

      The OJP Financial Guide requires that all grant fund recipients
“establish and maintain adequate accounting systems and financial records
to accurately account for funds awarded to them.” The Guide additionally
requires that the accounting system provide adequate maintenance of
financial data to enable planning, control, and measurement. The Guide also
requires that grantees separately account for each award and not commingle
grant funds.

       We found that Suisun City adequately maintained grant-related
financial records and data. Also, Suisun City utilized an accounting system
entitled Multiple Operations Management System. Based on our overall
review of grant-related transactions that were recorded in Suisun City’s
accounting system, we found that the system accurately accounted for
grant-related receipts and expenditures. Further, we found grant-related
transactions were separately tracked from all other funding.

Drawdowns

       According to the solicitations for both the 2009 Recovery Act and non-
Recovery Act JAG grants, units of local government may draw down any or
all funds after acceptance of the award. On September 17, 2009, Suisun
City drew down $1,014,929 for Grant 2009-SB-B9-0537, which was
essentially the total award amount less $1. Likewise, on November 12,
2009, Suisun City drew down $231,563 for Grant 2009-DJ-BX-0455, which
also was essentially the total award amount less $1. Both drawdowns were
made on an advanced basis and as of December 31, 2010, $261,339 of
grant funds related to the Recovery Act JAG grant remained unexpended and
$146,132 of grant funds related to the non-Recovery Act JAG grant
remained unexpended.




     6
         Suisun City’s fiscal year is from July 1 through June 30.

                                             -8-
       According to the grant solicitations, Suisun City was allowed to draw
down each grant award amount as an advance in its entirety, as long as it
established a trust fund that separately accounted for the grant funds. We
found that Suisun City properly segregated grant funds within its official
accounting system in accordance with OJP’s requirements. Further, Suisun
City, in its capacity as fiscal agent for the disparate jurisdictions, distributed
these grant funds to the other Solano County recipients on a reimbursement
basis.

Program Income

      According to the OJP Financial Guide, interest earned on JAG funding is
considered program income and it should be expended only on allowable
purpose areas under the JAG program. Also, program income should be
used within the grant period and any unexpended program income should be
remitted to OJP.

      As of December 31, 2010, Suisun City had earned grant-related
interest income totaling $23,239 for both grants ($18,787 related to the
Recovery Act JAG grant and $4,452 related to the non-Recovery Act JAG
grant). Suisun City correctly recorded this interest income in each separate
grant account in its financial management system and as a result, these
funds were available to be used on grant-related purposes.

      According to the Memoranda of Understanding (MOU) that Suisun City
signed with its grant sub-recipients, it was agreed that all interest income
earned would be made available to the Suisun City Police Department. As of
December 31, 2010, the Suisun City Police Department had not yet
expended any of the $23,239 in program income resulting from earned
interest.

Expenditures

       As of June 30, 2010, Suisun City and its disparate jurisdictions charged
a total of $486,721 in grant-related expenditures to the two JAG grants.
This included $447,942 in expenditures for the Recovery Act JAG grant and
$38,779 in expenditures for the non-Recovery Act JAG grant. We
judgmentally selected a sample of 23 transactions totaling $438,105
(90 percent): $413,018 related to the Recovery Act JAG grant and $25,087
related to the non-Recovery Act JAG grant. Exhibits 4 and 5 show the
breakdown of expenditures for the two grants.




                                      -9-
                             EXHIBIT 4
          SUMMARY OF SAMPLED EXPENDITURES BY RECIPIENT
              RECOVERY ACT JAG GRANT 2009-SB-B9-0537
                                            GRANT
                                           ADMIN-
         AGENCY    PERSONNEL   EQUIPMENT  ISTRATION  TOTAL
    Suisun City            $       0       $30,500     $6,561   $ 37,061

    Benicia                        0               0       0            0

    Dixon                          0               0       0            0

    Fairfield                  34,811              0       0      34,811

    Solano County              58,506              0       0      58,506

    Vacaville                  45,986              0       0      45,986

    Vallejo                 236,654                0       0     236,654

                Subtotal   $375,957        $30,500     $6,561   $413,018
   Source: Suisun City

                             EXHIBIT 5
          SUMMARY OF SAMPLED EXPENDITURES BY RECIPIENT
            NON-RECOVERY ACT JAG GRANT 2009-DJ-BX-0455
                                           GRANT
                                          ADMIN-
         AGENCY    PERSONNEL   EQUIPMENT ISTRATION    TOTAL
    Suisun City                $   0             $ 0    $730      $   730

    Fairfield                      0               0       0            0

    Solano County                  0               0       0            0

    Vacaville                  24,357              0       0      24,357

    Vallejo                        0               0       0            0

                Subtotal    $24,357              $ 0    $730     $25,087
   Source: Suisun City

Personnel Expenses

      Suisun City’s sub-recipients billed Suisun City on a periodic basis for
the personnel expenditures that each sub-recipient incurred. We
judgmentally selected a total of 14 such billings for personnel costs charged
to both grants, totaling $400,314, in order to perform more detailed testing.



                                        - 10 -
      Grant 2009-SB-B9-0537

       We identified 11 transactions, totaling $375,957 in personnel costs
charged to the Recovery Act JAG grant. Vallejo had the majority of the
personnel costs with a total of $236,654 (63 percent) for the salaries and
fringe benefits of one police officer and overtime for multiple sworn police
officers. In addition, the Solano County District Attorney’s Office charged
$58,506 (16 percent) in personnel costs related to its forensics laboratory
director. The remainder of personnel costs charged against the grant,
included $45,986 (12 percent) for part time family support workers
employed by the city of Vacaville, and $34,811 (9 percent) for part time
Police Activities League recreational staff and instructors hired by Fairfield.
All transactions that we reviewed were properly authorized, accurately
recorded, and adequately supported by timesheets, payroll registers, and
canceled checks.

      Grant 2009-DJ-BX-0455

      We identified three transactions, totaling $24,357 in personnel costs
charged to the non-Recovery Act JAG grant. All three transactions were
related to city of Vacaville’s part time administrative clerk who worked in its
Investigative Services Division. All transactions reviewed were properly
authorized, accurately recorded, and adequately supported by timesheets
and canceled checks.

Equipment

      According to the OJP Financial Guide, property acquired with grant
funds should be used for the purposes stated in the grant application.
Further, grant recipients must maintain records on the source of property
items that were acquired using grant funds.

      We judgmentally selected $30,500 in equipment costs, all of which
was charged against the Recovery Act JAG grant; the non-Recovery Act JAG
grant had no equipment related charges. The $30,500 in equipment
purchases included handheld radars, laptop computers, and mobile radios.
The equipment purchases were comprised of five transactions, which we
reviewed and found the equipment expenditures to be properly authorized,
accurately recorded in Suisun City’s grant-related accounting records, and
adequately supported by purchase orders, invoices, and canceled checks.

      Further, we judgmentally selected from Suisun City’s equipment
purchases a sample of 20 property items that included handheld computers,
printers, and mobile radios. We physically verified all sample property items

                                     - 11 -
and determined that the equipment items were being utilized for grant-
related purposes. Further, we found that all sampled property items were
properly recorded and identified as federally funded, with the exception of
one radio whose location was inaccurately recorded on Suisun City’s
property records. The radio in question was located in a different police
squad car than what was indicated on the property records. Suisun City’s
Grant Administrator acknowledged the error and we observed him correct
the error in Suisun City’s property records.

Administrative Costs

      As the fiscal agent for the Recovery Act and non-Recovery Act JAG
grants and in accordance with the respective MOUs for the two grants,
Suisun City was allocated 5 percent of each award to cover the costs of
administering the grants. This meant that Suisun City was entitled to
receive $50,746 from the Recovery Act JAG grant and $11,578 from the
non-Recovery Act JAG grant as reimbursement for administrative costs.

       As part of our sample selection, we judgmentally selected for testing a
total of $7,291 in administrative costs that Suisun City charged to both
grants. These charges were comprised of four transactions, which included:
overtime charges related to grant administration and travel charges for
grant administrators to attend a OJP financial management seminar in
Washington, D.C. We found all administrative expenditures that we tested
to be properly authorized, accurately recorded in grant-related accounting
records, and adequately supported by timesheets, invoices, and receipts.

Monitoring of Sub-recipients and Contractors

      As the fiscal agent for both JAG grants, Suisun City was responsible for
ensuring that all sub-recipients met the requirements of the both the
Recovery Act JAG program as well as the non-Recovery Act JAG program.
We interviewed the Suisun City Grant Administrator and reviewed grant-
related documentation, including correspondence between the Grant
Administrator and the grants’ sub-recipients. Based on our review, we
determined that Suisun City’s management of funds and its monitoring of
the grants’ sub-recipients was adequate to ensure compliance with grant
requirements.

Management of Funds

      According to the MOUs for both the Recovery Act and non-Recovery
Act JAG grants, Suisun City was responsible for maintaining custody of grant
funds until disbursement was necessary. The MOUs further stipulated that

                                    - 12 -
funds were to be disbursed on a quarterly basis, and only upon submission
and approval of quarterly reports. We reviewed all of Suisun City’s
disbursements that it made to sub-recipients during the review period and
found that funds were disbursed in accordance with the MOUs, were properly
authorized, and adequately supported. Therefore, based on our testing, we
determined that Suisun City’s process for managing grant funds was
adequate to ensure accountability for sub-recipients’ fund requests.

Monitoring

      Grant monitoring is an essential tool to ensure that grant programs are
implemented, objectives are achieved, and grant funds are properly
expended. To this end, OJP requires that sub awards be monitored
throughout the life of the grant to ensure that: (1) sub-recipients comply
with essential grant requirements; (2) programs initiated by the sub-
recipients are carried out in a manner consistent with the requirements of
the grant program; (3) sub-recipients are provided guidance on policies and
procedures, grant program requirements, general federal regulations, and
basic programmatic, administrative, and financial reporting requirements;
and (4) any problems that may impede the effective implementation of grant
programs are identified and resolved.

      We observed that Suisun City’s approach to monitoring included a
combination of reminder notices, technical assistance, and report templates
that the Suisun City Grant Administrator had developed to ensure that the
financial and program data it received from the sub-recipients was
consistent and complete. In addition, we noted that the Grant Administrator
provided ongoing technical assistance on grant-related issues to sub-
recipients, usually via e-mail. In general, we found that this system of
reminders, report templates, and technical assistance was adequate to
ensure that sub-recipients complied with essential grant requirements.

Reporting

      According to the OJP Financial Guide, award recipients are required to
submit both financial and programmatic reports. These reports include: a
description of the status of the funds and the projects funded by the grants,
a comparison between actual accomplishments and the grant objectives, and
other pertinent information. We reviewed Suisun City’s FSRs, Progress
Reports, and Recovery Act Reports to determine whether these reports were
submitted in a timely manner and whether these reports were accurate. We
noted that sub-recipients did not report separately to OJP. Instead, the
Suisun City Grant Administrator submitted consolidated financial and
progress reports on behalf of Suisun City and its sub-recipients.

                                   - 13 -
Financial Status Reports

       According to the OJP Financial Guide, FSRs are due to OJP no later than
45 days after the end of each quarter, with the final FSR due within 90 days
after the grant end date. We reviewed four of the most recent FSRs
submitted for both grants at the time of our audit fieldwork. We found that
Suisun City submitted these FSRs to OJP in a timely manner, as shown in
Exhibits 6 and 7.

                               EXHIBIT 6
                 FINANCIAL STATUS REPORTS HISTORY FOR
                RECOVERY ACT JAG GRANT 2009-SB-B9-0537
     REPORT         REPORTING        REPORT     DATE             DAYS
      NO.             PERIOD        DUE DATE  SUBMITTED          LATE
        3        07/01/09 - 09/30/09       11/14/09   11/13/09     0

        4        10/01/09 - 12/31/09       02/14/09   01/31/10     0

        5        01/01/10 - 03/31/10       05/15/10   04/29/10     0

        6        04/01/10 - 06/30/10       08/14/10   07/31/10     0
     Source: Suisun City and OJP

                           EXHIBIT 7
             FINANCIAL STATUS REPORTS HISTORY FOR
           NON-RECOVERY ACT JAG GRANT 2009-DJ-BX-0455
     REPORT      REPORTING        REPORT     DATE     DAYS
      NO.         PERIOD         DUE DATE SUBMITTED   LATE
        4        07/01/09 - 09/30/09       11/14/09   11/13/09     0

        5        10/01/09 - 12/31/09       02/14/09   01/31/10     0

        6        01/01/10 - 03/31/10       05/15/10   05/15/10     0

        7        04/01/10 - 06/30/10       08/14/10   07/31/10     0
     Source: Suisun City and OJP

      We also reviewed the contents of each FSR to determine whether the
reports contained accurate information related to actual expenditures, un-
liquidated obligations incurred during the reporting period, and cumulative
expenditures for the award. Based on our review, we found that the
expenditure amounts as recorded on the FSRs were significantly different
from the grant related expenditures recorded in Suisun City’s
accounting records. In addition, we found that for the reporting periods
ending September 30, 2009, and December 31, 2009, Suisun City omitted
from its FSRs cumulative program income resulting from interest earned.


                                       - 14 -
Specifically, a total of $2,442 and $7,571 in cumulative interest earned was
omitted from Suisun City’s FSRs ending September 30, 2009, and
December 31, 2009, respectively. Suisun City’s Grant Administrator
acknowledged this oversight and Suisun City corrected the omission on its
FSRs for the quarter ending March 31, 2010.

      Exhibits 8 and 9 provide the specific differences in cumulative
expenditures between the FSRs that Suisun City submitted to OJP and
Suisun City’s official accounting system. According to the OJP Financial
Guide, “. . . award recipients will report program outlays and revenue on a
cash or accrual basis in accordance with their accounting system.” We
asked Suisun City’s Grant Administrator why its FSRs were notably different
from Suisun City’s official accounting records. The Grant Administrator
explained that he prepared the FSRs based primarily on the financial reports
that he received from the sub-recipients, which included grant related
expenditures that had not yet been recorded in Suisun City’s accounting
system. We recommend that OJP ensure that Suisun City submit accurate
FSRs that are consistent with its accounting system.

                           EXHIBIT 8
     ACCURACY OF SUISUN CITY’S FINANCIAL STATUS REPORTS FOR
            RECOVERY ACT JAG GRANT 2009-SB-B9-0537
                                                      DIFFERENCE
                                         ACCOUNTING    BETWEEN
                               FSRS:      RECORDS:     FSRS AND
REPORT      REPORTING       CUMULATIVE   CUMULATIVE  ACCOUNTING
 NO.         PERIOD        EXPENDITURES EXPENDITURES   RECORDS
    3       07/01/09 - 09/30/09      $ 197,850       $ 28,298      $ 169,552

    4       10/01/09 - 12/31/09        304,879         151,696       153,183

    5       01/01/10 - 03/31/10        444,835         158,894       285,941

    6       04/01/10 - 06/30/10       $578,813        $447,942      $130,871
Source: Suisun City and OJP




                                   - 15 -
                           EXHIBIT 9
     ACCURACY OF SUISUN CITY’S FINANCIAL STATUS REPORTS FOR
          NON-RECOVERY ACT JAG GRANT 2009-DJ-BX-0455
                                                      DIFFERENCE
                                         ACCOUNTING    BETWEEN
                               FSRS:      RECORDS:     FSRS AND
REPORT      REPORTING       CUMULATIVE   CUMULATIVE  ACCOUNTING
 NO.         PERIOD        EXPENDITURES EXPENDITURES   RECORDS
    4            07/01/09 - 09/30/09            $ 7,629                 $ 0            $ 7,629

    5            10/01/09 - 12/31/09              16,463                617             15,846

    6            01/01/10 - 03/31/10              25,087              8,246             16,841

    7            04/01/10 - 06/30/10            $85,105            $38,779             $46,326
Source: Suisun City and OJP

Annual Progress Reports

      The OJP Financial Guide requires grantees to submit Progress Reports
semiannually for discretionary awards and annually for block or formula
awards. Since the two grants we audited were formula grant awards, they
were subject to an annual progress reporting requirement. Suisun City was
required to submit one report during the award period for each grant. The
two Progress Reports that Suisun City submitted to OJP were accurate and
submitted in a timely manner.

                                   EXHIBIT 10
                          PROGRESS REPORT HISTORY FOR
                     RECOVERY ACT JAG GRANT 2009-SB-B9-0537
         REPORT          REPORTING       REPORT      DATE                       DAYS
          NO.              PERIOD       DUE DATE   SUBMITTED                    LATE
             1       03/01/09 - 09/30/09 7       12/31/09       11/17/09           0
        Source: Suisun City and OJP




         7
          According to the OJP Financial Guide, grantees that have received formula grants
are required to submit annual progress reports that correspond to the federal fiscal year. This
means that grantees have until December 31st of each year to submit their progress reports
for the 12-month period ending September 30th. Therefore, Suisun City’s first progress report
for its Recovery Act JAG grant covered less than a 12-month period.

                                             - 16 -
                              EXHIBIT 11
                     PROGRESS REPORT HISTORY FOR
              NON-RECOVERY ACT JAG GRANT 2009-DJ-BX-0455
        REPORT      REPORTING        REPORT     DATE     DAYS
         NO.          PERIOD        DUE DATE SUBMITTED   LATE
          1       10/01/08 - 09/30/09       12/31/09   11/17/09     0
     Source: Suisun City and OJP

Quarterly Recovery Act Reports

      Section 1512 of the Recovery Act requires recipients of Recovery Act
funds to report to the Recovery Act website (FederalReporting.gov) related
expenditures and the number of jobs created or saved as a result of
Recovery Act funding. Suisun City was required to submit quarterly reports
that were due 10 days after the close of each quarter. We reviewed three of
the most recent Recovery Act reports at the time of our audit fieldwork. We
found that all of these reports were submitted in a timely manner, as
required.

       We also tested to determine if the reports were accurate in reporting
Recovery Act-related cumulative expenditures and the number of jobs saved
or created. We found that the cumulative expenditures that were included in
Suisun City’s Recovery Act reports differed significantly from Suisun City’s
official accounting records. Exhibit 12 provides detailed comparisons
between the Recovery Act reports and Suisun City’s accounting records.

                                EXHIBIT 12
              ACCURACY OF SUISUN CITY’S RECOVERY ACT REPORTS
                  RECOVERY ACT JAG GRANT 2009-SB-B9-0537
                                                           DIFFERENCE
                                                            BETWEEN
                                RECOVERY ACT  ACCOUNTING  RECOVERY ACT
                                  REPORT:      RECORDS:    REPORT AND
 REPORT           REPORTING      CUMULATIVE   CUMULATIVE   ACCOUNTING
  NO.              PERIOD       EXPENDITURES EXPENDITURES   RECORDS
    3         07/01/09 - 09/30/09         $126,582     $ 28,298     $ 98,284

    4         10/01/09 - 12/31/09          304,879      151,696         153,183

    5         01/01/10 - 03/31/10         $444,835     $158,894     $285,941
Source: Suisun City and OJP

      With regards to the information in the Recovery Act reports related
to jobs saved or created, we verified the full time equivalent data in the
report covering the first quarter of 2010 by tracing the data to

                                        - 17 -
supporting documentation. As a result, we found that Suisun City accurately
reported the number of jobs saved or created in its Recovery Act report for
the first quarter of 2010.

Award Requirements

      We reviewed Suisun City’s grant award documentation to identify any
additional special requirements that OJP placed upon Suisun City as
conditions of both grant awards. We found that Suisun City and its sub-
recipients complied with these additional special requirements for both
grants.

Program Performance and Accomplishments

       According to the grant applications for both the Recovery Act and non-
Recovery Act JAG grants, the overall purpose of the grants was to “infuse
urgently needed funding to support law enforcement programs in
Solano County.” 8 Toward that end, the program narratives of the respective
grants stated that projects would be started upon receipt of funding, or
shortly thereafter, usually within the first quarter. As of March 2011, Suisun
City and its sub-recipients accomplished, or were in the process of
accomplishing, the grant objectives for both grants, except for two instances
where progress in accomplishing grant objectives was lagging. Specifically,
Fairfield planned to use Recovery Act and non-Recovery Act JAG grant funds
to purchase closed circuit cameras, install them in high crime areas, and
connect the cameras to Fairfield’s public safety camera network. According
to the grant applications, Fairfield should have purchased and installed the
cameras by December 31, 2009. However, as of March 2011, the cameras
had not yet been purchased.




       8
         According to the Bureau of Labor Statistics, the unemployment rate for Solano
County nearly doubled during the grant period, going from 7.4 percent in October 2008, to
13 percent in March 2010.

                                          - 18 -
                              EXHIBIT 13
               GRANT PERFORMANCE AND ACCOMPLISHMENTS
                RECOVERY ACT JAG GRANT 2009-SB-B9-0537

                      OBJECTIVE ACCORDING TO                  STATUS AS OF
    AGENCY              GRANT APPLICATION                    MARCH 1, 2011

 Benicia        Purchase laptop computers.              Completed.



                Fund retention of narcotics officer
 Dixon                                                  Progress ongoing.
                position.

                Fund recreational staff and
 Fairfield      instructors for Police Activities       Progress ongoing.
                League.

                                                        Not yet completed.
                Purchase 10 closed circuit cameras
 Fairfield                                              Estimate completion date:
                for high-crime areas.
                                                        July 2011.
 Solano
 County
 District       Fund forensics lab director position.   Progress ongoing.
 Attorney
 Office
                Purchase radar units, mobile radios,
                an online crime reporting system,
                electronic citation devices, license
 Suisun City                                            Progress ongoing.
                plate recognition system, and
                equipment for Special Enforcement
                Team.

                Fund two part time family support
 Vacaville                                              Progress ongoing.
                workers.


                Fund one full time police officer
 Vallejo                                                Progress ongoing.
                position and sworn officer overtime.

Source: Suisun City and OJP

      Suisun City – The Suisun City Grant Administrator stated that the
license plate recognition system was delayed while Suisun City waited for
the manufacturer to implement a newly developed camera for the system.
The Grant Administrator also stated that the delays in the online crime
reporting system were due to a lack of time on his part. As of March 1,
2011, there was a trial deployment by the Suisun City Police Department of

                                       - 19 -
one police cruiser license plate recognition system. If the trial is successful,
more police cruiser license plate recognition systems may be purchased with
grant funds. However, funds may also be redirected towards the purchase
of more mobile radios as a result of an unsuccessful trial deployment.

                              EXHIBIT 14
                GRANT PERFORMANCE AND ACCOMPLISHMENTS
               NON-RECOVERY ACT JAG GRANT 2009-DJ-BX-0455

                      OBJECTIVE ACCORDING TO                   STATUS AS OF
    AGENCY              GRANT APPLICATION                     MARCH 1, 2011
                 Purchase six closed circuit cameras     Not yet completed.
 Fairfield       and add to city’s public safety         Estimate completion date:
                 camera network.                         July 2011.
 Solano
 County
                 Purchase and install a laboratory
 District                                                Completed.
                 management information system.
 Attorney
 Office
                 Purchase electronic citation devices,
 Suisun City     radar units, and a mobile data          Completed.
                 computer.

                 Fund part time clerk for police
 Vacaville                                               Progress ongoing.
                 department.

                 Provide one full time sworn officer
 Vallejo         position and overtime for other full    Progress ongoing.
                 time sworn officers.
Source: Suisun City and OJP

       Fairfield – For both the Recovery Act JAG grant and the non-Recovery
Act JAG grant, the Suisun City’s Grant Administrator stated that he had met
with Fairfield officials to discuss Fairfield’s delays in purchasing the closed
circuit cameras. According to the Grant Administrator, Fairfield officials were
delaying the purchase in order to coordinate funding from other sources.
The Grant Administrator advised Fairfield officials that the cameras should
have been purchased no later than September 30, 2010. However, this did
not happen. The new target date for Fairfield purchasing the camera
surveillance system is by July 2011. According to the Grant Administrator, if
the new target date is not met, Suisun City, as the fiscal agent for the
grants, will deduct additional administrative expenses from Fairfield’s grant
allocation to offset the cost of Suisun City’s increased oversight and
monitoring over Fairfield.

                                       - 20 -
Conclusion

       Based on our review, we found that Suisun City generally complied
with essential grant requirements. Specifically, Suisun City separately
tracked from all other funding grant-related transactions, program income
resulting from interest earned, drawdowns, and reimbursement requests
from its sub-recipients. Grant expenditures were properly authorized,
classified, and supported. We physically verified a sample of property items
that were purchased with grant funds and we found the items were being
utilized for grant-related purposes. As the fiscal agent for both JAG grants,
Suisun City complied with grant requirements and it monitored its sub-
recipients to ensure that the sub-recipients likewise adhered to grant
requirements. Also, Suisun City submitted the required FSRs, Progress
Reports, and Recovery Act reports in a timely manner. Also, the information
in the Progress Reports for the two grants we audited was accurate.

       However, we found that the expenditure information recorded on
Suisun City’s FSRs and Recovery Act reports did not match the expenditure
information in the official accounting records. In addition, Suisun City’s FSRs
for two quarters did not include program income that resulted from interest
earned. During our audit, Suisun City corrected the omission on its
subsequent FSR. Further, we found that Suisun City and all of its sub-
recipients, except Fairfield, either completed their objectives as described in
the grant applications or were in the process of fulfilling their objectives.
Fairfield’s objectives for both grants included the purchase and installation of
camera equipment. At the time of our review, we noted that Fairfield had
yet to purchase and install the camera equipment. As a result of our
findings, we made two recommendations to OJP.

Recommendations

      We recommend that OJP:

      1.   Ensure that Suisun City submit accurate FSRs and Recovery Act
           reports that are consistent with its accounting system.

      2.   Ensure that Suisun City and its sub-recipient, Fairfield, accomplish
           stated grant objectives for its Recovery Act and non-Recovery Act
           JAG grants.




                                     - 21 -
                                                                APPENDIX I

            OBJECTIVE, SCOPE, AND METHODOLOGY

      The purpose of our audit was to determine whether costs claimed
under Grants 2009-DJ-BX-0455 and 2009-SB-B9-0537 were allowable,
reasonable, and in accordance with applicable laws, regulations, guidelines,
and terms and conditions of the grants. The objective of our audit was to
review performance in the following areas: (1) internal control
environment; (2) drawdowns; (3) program income; (4) expenditures
including payroll, fringe benefits, indirect costs, and accountable property;
(5) matching; (6) budget management; (7) monitoring of sub-recipients and
contractors; (8) reporting; (9) award requirements; (10) program
performance and accomplishments; and (11) post end date activity. We
determined that indirect costs, matching, budget management, and post end
date activity were not applicable to this grant.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      Our audit scope included a review period for our audit that focused on,
but was not limited to, the period beginning October 1, 2008, through
June 30, 2010, for Grant 2009-DJ-BX-0455, and the period beginning
March 1, 2009, through June 30, 2010, for Grant 2009-SB-B9-0537.

       We tested compliance with what we consider to be the most important
conditions of the two grants. Unless otherwise stated in our report, the
criteria we audit against are contained in the OJP Financial Guide, award
documents, Code of Federal Regulations, Office of Management and Budget
Circulars, and the Recovery Act.

      We reviewed a judgmentally selected sample of transactions for both
grants that were recorded in Suisun City’s grant related accounting records
as of June 30, 2010. This included 5 expenditures related to
Grant 2009-DJ-BX-0455 and 18 expenditures related to
Grant 2009-SB-B9-0537.

      In conducting our audit, we performed sample testing in five areas,
which were grant expenditures; management of sub-recipients; FSRs;
Progress Reports; and Recovery Act Reports. In this effort, we employed a


                                   - 22 -
judgmental sampling design to obtain broad exposure to numerous facets of
the grants reviewed, such as dollar amounts or expenditure category.

      We did not test internal controls for Suisun City taken as a whole or
specifically for the grant program administered by Suisun City. An
independent Certified Public Accountant conducted an audit of Suisun City's
financial statements. The results of this audit were reported in the Single
Audit Report that accompanied the Independent Auditors’ Report for the
year ending June 30, 2010. The Single Audit Report was prepared under the
provisions of Office of Management and Budget Circular A-133. We
reviewed the independent auditor’s assessment to identify control
weaknesses and significant noncompliance issues related to Suisun City or
the federal programs it was administering, and assessed the risks of those
findings on our audit.

      In addition, we assessed the grantee’s monitoring of sub-recipients;
reviewed the timeliness and accuracy of FSRs, Progress Reports, and
Recovery Act Reports; and evaluated performance to grant objectives.
However, we did not test the reliability of the financial management system
as a whole, nor did we place reliance on computerized data or systems in
determining whether the transactions we tested were allowable, supported,
and in accordance with applicable laws, regulations, and guidelines. We also
performed limited testing of information obtained from OJP’s Grants
Management System (GMS) and found no discrepancies. We thus have
reasonable confidence in the GMS data for the purposes of our audit.
However, the OIG has not performed tests of the GMS system specifically,
and we therefore cannot definitively attest to the reliability of GMS data.




                                   - 23 -
                                                                                                                APPENDIX II


                                        GRANTEE RESPONSE

                                                                                                            oc ",~Y        2011

CITY COUNC IL                                                                                  CITY COUNC IL MEETING

I'cdro "Petc" M. Snnchcl.. Mayor                                                                      Firsl ,lI1d Third Tuesday
Michael J. Hudson, Mayor Pro·Tctll                                                                                 Every ~,:Ionth
Jane Day
Sam Dening                              CITY OF SUISUN CITY
Micha<.'l A, S... g<tla                   POLICE DEPARTMENT
                                                    70 ( C ivic Center BInI.
                                                 Suisun C it ~·. Cnlirorni:l 94585
                                                      Edmond W. Dadisho
                                                        Chief of "olice

              May 4, 2011



              David J. Gasc hke
              Regional Audit Manager
              U.S. Department of Justice
              Office of the Inspector General
              1200 Bayhill Drive, Suite 201
              San B fun o, CA 94066

              RE: Response to Draft Audit Report

              Dear Mr. Gaschke,

             I would like to thank you for the opport unity to comment on the draft aud it report
             concerning the Suisun City Police Department's management of the Edward Byrne
             Memorial Just ice Assistance Grants. The City of Suis un City has comp leted its reviewa l'
             the draft audi t report covering the referenced grants and has the fol lowing responses to
             each of the recommendations:

             Recommend;ttion 1: Ensure th~tt Suisun C ity submits nccurate Financi;tl Status
             Reports (FSR' s) ;tnd Recovery Act reports thnt ;trc consistent with its accounting
             system.

             The City co ncurs with this recommendalion.

             We agree that differences existed between what was reported on the FSR 's and Recovery
             Ac t reports and what was recorded in the C ity 's general ledger. The d ifferences were due
             to a timing delay between when sub-grantee expe nditu res were reported to Suis un City,
             when they were reported in the FSR and Recovery Ac t reports and when th ey ultimately
             were entered on ou r general ledger.

             The s ub-grantee expend itures reported in the FSR 's and Recovery Act reports for each
             quarter were based upon s ub-gran tee data subm itted to Su isun C ity on a form we
             developed. No fo rm was provided by the Office o f JlJstice Programs (OJP) to use fo r
             tracking sub-grantee expend itures and re imburse ment requests. Each s ub-grantee

                                                 DIVISIONS: AREA CODE (707)
                 DISPATCII I RECORDS 421· 7373 .   ADMIN ISTRATION 421· 7350 .  INVESTIGATIONS 421·736 1
               YOUTII SERVICES 421 ·7380 .   VOLUNTEER SERVICES 421· 7373 .    CODE ENFORCEt-.·IENT 421·3223
                                                        FAX 422·8074




                                                               - 24 ­
Mr. Gaschk"
May",. 2011
Pag!;! 2




recorded their expenditures to substantiate their claims in their respective general ledgers.
Suisun C ity made a general ledger entry recording the expense once quarterl y data was
subm illed and approved by OJP and the forms referenced above were sent to the C ity's
Finance Department. Once this process was complete, the ledger reflected the expenses
reported in the FSR and Recovery Ac t report. Th is process of submitting the data to the
US Oc:parlmc:nt of Justice (OOJ), wai ting for approval of the reports and th en issuing
reimbursement was consistent with the Disparate Fu nding Me morand um of
Understandings entered into by Suisun Ci ty and s ubwgrantees and included in our original
grant app li cations to DOJ I .

In li gh t of this recommendation , we have modilied our processes such that subwgrantee
expend itures reported on the quarterly report form are entered inio the general ledger.
Therefore, all future FSR's will include the subwgrantee data and be based upon the
genera l ledger as opposed to the underlying forms.

With regards to Recovery Act reports, ou r acco unt ing records are not closed prior to the
end of the in itial submiss io n period deadline each quarter. 2 However, pursuant to the
document "Tips for Successfu l Recovery Act Reporting" from OJP, we are permitted to
provide a projected amount of expenditures for the period that has not yet been closed.
We believe that the aforementioned process of ca lcu lating subwgrantee expenditures for a
particular quarter based upon their quarterl y report form is sufficient and reliable for
calculat ing the projected amount of expe ndi tures.

Recommendation 2: Ensure th;It Suisun City and its sub-recipient Fairfield
accomplish the shHed grant objectives for its Recovery Act and non-Recovery Act
JAG gnmts.

The C ity concurs with this reco mmendat ion.

The Fairfield Pol ice Department began purchasing the ca mera equ ipmen t spec ified in the
Recovery Ac t and no nwRecovery Ac t JA G grants in the first week of April 201 I. All
eq uipment will be acquired pri or to July 2011. OJP was notitied oCthe updated time line
and we wi ll cont inue to maintain our regul ar contact wi th OJP regardi ng our activities
relating to each grant.




I The MOUs for the Recovery Act JAG and Non-Recovery Act JAG state, in part, "Funds will be d isbursed
to C ITI ES and Ihe COUNTY alier submission and approva l or quanerly reports."
2 The initial subm ission period for the Secti on 15 12 repons is 10 days following Ihe cnd of the reponing
quaner.




                                                 - 25 ­
Mr. Gaschke
A/ay 4. 2011
Page 3



Ifyoll have any further questions or require additional information, please don't hesitate
10 contact Sergeant Andrew White al 707-421-7373 or awhiterWsu islln.com.

Best regards.


~ , U/~
Edmond W. Dadisho
Chief of Police

cc:       Office of Ju stice Programs (copy provided via e-mail)
          U.S. Department of Justice




                                           - 26 ­
                                                                                                APPENDIX III


       DEPARTMENT OF JUSTICE RESPONSE


                                                     u.s. Department of Justice                  2 3 MAr 2011

                                                     Office of Justice Programs

                                                     Office of Audit, Assessment, and Management



                                                      \\"silillglOlI, D.C. 2053 1


MAY 132011'

MEMORANDUM TO :              David J. Gaschke
                             Regional Audit Manager
                             Office of the Inspector General
                             San Francisco Regional Audit Office

FROM :                       Maureen ~ I-lety1~belg I....... . • L A
                             Director ~ ~~-                                    L
                                                                               a-
SUBJECT:                     Response to the Draft Aud it Report, OfJice 0/ Justice Programs,
                             Edward Byrne Memorial Justice Assistance Grant Program
                             Grants Awarded 10 the City a/Suisun City, California

This memorandum is in response to your correspondence, dated April 15, 20 11 , transmitting the
subject draft audi t report fo r the City of Suisun City (City). We consider the subject report
reso lved and request written acceptance of this action fro m your office.

The report contains two recommendations and no questioned costs. The fo llowing is the Office
of Justice Programs' (OJP) analysis of the draft audit repon recommendations. For ease of
review, the recommendations are restated in bold and are fo ll owed by our response .

1.     We recomm end that OJP ensures tha t Suisun City submits accurate FFRs and
       Recovery Act reports that a re consistent with its accountin g systcm_

       We agree with the recommendation . We wi lJ coordinate with the City to obtain a
       copy of procedures implemented to ensure that future Federal Financial Reports and
       Recovery Act Reports are accurately prepared, and reconci led to the City' S accounting
       system.

2.     We recommend th a t OJP ensures that Suisun City and its sub-recipient Fairfield
       accomplish stated grant obj ectives for its Recovery Act and non-Recovery Act J AG
       grants.

       We agree with the recommendation. We wi ll coordinate with the C ity to obtain
       documentation to suppon that the City and its sub-recipient, the City of Fairfield,
       accompli sh the grant objectives listed in the applications for their Recovery Act and
       non-Recovery Act Justice Assistance Grant Program awards.




                                              - 27 ­
We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require add itional information, please contact Jeffery A Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc:    Jeffery A. I-Iaiey
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Eileen Garry
       Deputy Director
       Bureau of Justice Assistance

       Amanda LoCicero
       Audit Liaison
       Bureau of Justice Assistance

       Zephyr Fraser
       Grant Program Specialist
       Bureau of Justice Assistance

       Richard Theis
       Assistant Director
       Audit Liaison Group
       Justice Management Division

       OJP Executive Secretariat
       Control Number 20110566




                                               2




                                            - 28 ­
                                                             APPENDIX IV

              OFFICE OF THE INSPECTOR GENERAL
             ANALYSIS AND SUMMARY OF ACTIONS
               NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to Suisun City and OJP.
Suisun City’s and OJP’s responses are incorporated in Appendices II and III,
respectively, of this final report. The following provides the OIG analysis of
the response and summary of actions necessary to close the report.

Recommendation Number:

   1. Resolved. Both OJP and Suisun City concurred with our
      recommendation to ensure that Suisun City submits accurate financial
      and Recovery Act reports that are consistent with Suisun City’s
      accounting system. OJP stated in its response that it will coordinate
      with Suisun City to obtain a copy of procedures that have been
      implemented in order to ensure that future financial reports and
      Recovery Act reports are accurately prepared and reconciled to Suisun
      City’s accounting system.

      In its response to our recommendation, Suisun City provided reasons
      for why its reports were not accurate. Suisun City also stated that it
      had modified its processes to include sub-grantee expenditures in its
      general ledger. Therefore, future reports will be based on Suisun
      City’s general ledger rather than other underlying documents. In
      addition, Suisun City stated that it will rely on OJP’s published
      guidance with regards to preparing Recovery Act reports.

      This recommendation can be closed when we obtain a copy of Suisun
      City’s new procedures related to the preparation and submission of
      accurate and complete financial and Recovery Act reports.

   2. Resolved. Both OJP and Suisun City concurred with our
      recommendation to ensure that Suisun City and its sub-recipient,
      Fairfield, accomplish stated grant objectives for its Recovery Act and
      non-Recovery Act JAG grants. OJP stated in its response that it will
      coordinate with Suisun City to obtain documentation to support the
      accomplishment of grant objectives as it relates to Fairfield and Suisun
      City.

      In its response, Suisun City stated that Fairfield had begun to purchase
      camera equipment and all equipment was expected to be acquired


                                    - 29 -
before July 2011. Suisun City notified OJP of its updated timeline and
will continue to inform OJP of its progress in this area.

This recommendation can be closed when we obtain documentation to
support Suisun City’s and Fairfield’s accomplishment of grant
objectives as stated in the Recovery Act and non- Recovery Act, JAG
grant applications.




                             - 30 -
